OFFICE OF INSPECTOR GENERAL

             Audit Report
  Fiscal Year 2007 Financial Statement Audit
            Letter to Management


              Report No. 08-01
               March 6, 2008




 RAILROAD RETIREMENT BOARD
                        UNITED STATES RAILROAD RETIREMENT BOARD

                                      OFFICE OF INSPECTOR GENERAL




                                                                 March 6, 2008


Michael S. Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit a memorandum on internal control
communicating certain matters concerning internal control that came to our
attention during our recent audit of the Railroad Retirement Board’s (RRB)
financial statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated November 2, 2007, except for matters relating to the fair
market value of the net assets of the National Railroad Retirement Investment
Trust as of September 30, 2007, as to which the date was November 15, 2007.
We performed our audit in accordance with U.S. generally accepted government
auditing standards and OMB audit guidance as applicable to the scope of our
audit. 1 We have not considered internal control since we obtained sufficient
appropriate audit evidence to support the audit opinion on November 2, 2007;
internal control was not among those matters to which we gave consideration
between November 2nd and November 15th.

During our audit, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a
significant deficiency, the details of which are presented in the attached
memorandum. That memorandum also presents the full text of those matters
previously reported as material weaknesses and significant deficiencies in
conjunction with our opinion on the financial statements. However, neither this
letter, nor the attached memorandum, modifies our report dual dated as of
November 2, 2007 and November 15, 2007, referred to above.

Our observations concerning internal control were presented to responsible
agency management who were offered the opportunity to review and comment
on the draft memorandum. Their responses are also attached.

In planning and performing this audit, we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the
RRB’s principal financial statements and not to provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill the

1
    See our report on the RRB’s financial statement for a full description of the scope and methodology.
                                                                              Page 2


RRB's control objectives is the responsibility of management. Because of
inherent limitations in any system of internal control, errors or irregularities may
nevertheless occur and not be detected. Also, controls found to be functioning at
a point in time may later be found deficient because of the performance of those
responsible for applying them. There can be no assurance that controls currently
in existence will prove to be adequate in the future as changes take place in the
organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB's system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during the audit.


                                                 Very truly yours,



                                             ~)~
                                                 Martin J. Dickman
                                                 Inspector General


Attachments

cc:	 V.M. Speakman, Jr., Labor Member
     Jerome F. Kever, Management Member
     Kenneth P. Boehne, Chief Financial Officer
     John M. Walter, Chair, Management Control Review Committee
     Henry M. Valiulis, Director of Administration/Senior Executive Officer
     Steven A. Bartholow, General Counsel
     Frank J. Buzzi, Chief Actuary
     Beatrice E. Ezerski, Secretary to the Board
Letter to Management                                                              Page 1
                           Memorandum on Internal Control
                                 Table of Contents

MATERIAL WEAKNESSES AND SIGNIFICANT DEFICIENCIES

  Material Weaknesses

       Information Security                                                  3

       Social Insurance Fund Balance                                         3

  Significant Deficiencies

       Financial Reporting                                                   4

OTHER MATTERS INVOLVING INTERNAL CONTROL

       Implementation of the Modified Cash Basis of Accounting               6

       Interim Financial Statements Report Outdated Information              7
       about the National Railroad Retirement Investment Trust

       Incorrect Beginning Balances for the Statement of Budgetary           8
       Resources and the Statement of Changes in Net Position

       Documentation to Evidence Compliance with GAAP                        9

       Controls Needed to Ensure Timely Recording                            9

       Controls Over Financial Reporting                                     10

       Discrepancies in Manual Intragovernmental Confirmations               11

       Preparation and Approval of Journal Vouchers                          12

               Financial Interchange Advances                                12

               Transfers from the Department of Labor                        12

               Reimbursement from the Social Security Administration         13

               Inaccurate Supporting Schedule                                13

       Quality Assurance Process for Voucher Preparation                     13

       Executing and Recording Transactions                                  15

       Documentation for Legal Representation Process                        15

       Internal Controls over Payroll Activities                             16

       Controls Over the Actuarial Projection Process and Social Insurance   18
       Reporting
Letter to Management                                                         Page 2
                       Memorandum on Internal Control
                             Table of Contents
ATTACHMENTS

   1. Bureau of the Actuary                                             20

   2. Bureau of Fiscal Operations’ Accounting, Treasury and Financial   21
      Systems Division

   3. Office of General Counsel                                         25

   4. Management Control Review Committee                               26

   5. Executive Committee                                               27
Letter to Management                                                                    Page 3
                           Memorandum on Internal Control

MATERIAL WEAKNESSES AND SIGNIFICANT DEFICIENCIES

In conjunction with our opinion on the RRB’s financial statements for the fiscal
years ended September 30, 2007 and 2006, we reported the following material
weaknesses and significant deficiencies.

Material Weaknesses

Information Security

During fiscal year (FY) 2007, the Office of Inspector General (OIG) evaluated
information security pursuant to the provisions of the Federal Information Security
Management Act. 2 Our review disclosed continued weaknesses in many areas of
the RRB’s information security program. Significant deficiencies in program
management and access controls make the agency’s information security program
a source of material weakness in internal control.

RRB efforts to strengthen information security continue and progress is being
made; however, previously identified significant deficiencies in access controls,
risk assessments, and periodic testing and evaluation continue to exist. In
addition, the agency’s information security program is not yet fully compliant with
current requirements for risk based policies and procedures, a certification and
accreditation program, a comprehensive remedial action process, continuity of
operations planning, and inventory of systems.

Agency management is working to address the weaknesses in its information
security program. Although some progress has been made, much work remains
to be completed.

Social Insurance Fund Balance

The RRB does not have a consistent theory under which it computes the
Railroad Retirement program’s fund balance for social insurance reporting.

The actuarial assumptions and methods used to measure amounts in the
statement of social insurance for financial accounting and disclosure purposes
should represent the agency’s best estimates. The program fund balance at the
beginning of the period is important because it impacts estimated future tax rates
on which estimates of future income are based. In addition, the availability of the
fund balance to offset any long term estimated actuarial liability created by a
shortfall of income over expense is important to understanding the financial
condition of the Railroad Retirement program.


2
 “Fiscal Year 2007 Evaluation of Information Security at the Railroad Retirement Board,” OIG
Report #07-08, September 27, 2007
Letter to Management                                                          Page 4
                        Memorandum on Internal Control

During our audit, we observed that the RRB had used different methods to
compute its social insurance fund balance as of January 1, 2006, compared with
January 1, 2007, including some amounts previously excluded and excluding
other amounts that had been previously included. The impact of the social
insurance fund balance on actuarial projections of income and expense for the
Railroad Retirement program is described in Note 15 to the RRB’s FY 2007
financial statements.

The RRB’s actuarial projections also include estimates of future tax rates.
Inquiries of management disclosed that neither the 2006 nor the 2007 fund
balance had been computed on the same basis used to compute tax rates under
the account benefit ratio method for which purpose the agency includes the net
assets of the NRRIT as computed under generally accepted accounting
principles (GAAP) for private investment companies, the same method used to
report on NRRIT-held assets in the RRB’s balance sheet.

Inconsistencies in fund balance methodology undermine management’s
assertion of best estimate and make comparative presentation less meaningful.

Recommendation

We recommend that the Bureau of the Actuary:

    1. work with the Bureau of Fiscal Operations to develop a consistent theory
       for computing and reporting the Railroad Retirement program’s fund
       balances.

Management’s Response

The Bureau of the Actuary concurred with the recommendation. The full text of
management’s response is presented as Attachment 1 to this memorandum.


Significant Deficiencies

Financial Reporting

Over the years agency responsibility for financial reporting has grown from
preparation of financial statements within six months of fiscal year-end, to
publication of an annual performance and accountability report within 45 days of
fiscal year-end. Publication of that report is an exercise in public accountability
of which preparation of accurate, reliable financial statements is but a single part.
Letter to Management                                                          Page 5
                        Memorandum on Internal Control

The Bureau of Fiscal Operations (BFO) is responsible for preparing agency
financial statements and publishing the RRB’s annual performance and
accountability report. During our FY 2006 audit, we observed that existing
procedures and controls over its financial reporting process needed to be
updated to fully ensure the quality of the RRB’s response to the expanding
responsibilities and short timeframes inherent to the Federal financial reporting
process. We also observed that the existing control framework was overly reliant
on the OIG’s annual audit of the financial statements to ensure the completeness
and accuracy of the performance and accountability report.

During FY 2007, we found the agency’s reporting process much improved by the
efforts of BFO management and staff. BFO responded to the OIG’s prior year
finding by implementing OIG-recommended corrective actions and by
implementing an enhanced year-end financial statement review process of their
own design.

Although the process has been strengthened, the corrective action has not yet
been in operation for a full fiscal year. Accordingly, the OIG continues to cite
financial reporting as an area of significant deficiency in internal control pending
a full year of experience demonstrating the effectiveness of controls over time.
Letter to Management                                                         Page 6
                       Memorandum on Internal Control

Readers should note that the errors found in the July 2007 version of the
Performance and Accountability Report (P&AR) were corrected prior to the final
publication of the report. The errors that were uncorrected at September 30,
2007, were provided to agency management on a Summary of Unadjusted
Misstatements.

Implementation of the Modified Cash Basis of Accounting

During our audit, we questioned two reported year-end balances citing
unrecorded accruals for carrier refunds of about $7.7 million which had been
reported to the agency by the Internal Revenue Service.

BFO stated that their treatment was consistent with the modified cash basis of
accounting for tax revenue per Statement of Federal Financial Accounting
Standard (SFFAS) #7. During our discussions, auditors noted that past
decisions which resulted in current procedure were not fully documented and had
been developed by managers who were no longer on staff. As a result, BFO was
not able to fully support their application of the modified cash basis of accounting
and the decision to exclude the accrual.

Recommendation

We recommend that BFO:

    2. review the applicable standard and make specific documented
       determinations concerning how the modified cash basis of accounting
       impacts the accounting and reporting of tax revenue.

Management’s Response

BFO has agreed to review the applicable standard and present in BFO’s
Accounting Procedures Guide how the modified cash basis of accounting
impacts the accounting reporting of tax revenue.

The full text of management’s response is presented as Attachment 2 to this
memorandum.
Letter to Management                                                                     Page 7
                           Memorandum on Internal Control

Interim Financial Statements Report Outdated Information about the
National Railroad Retirement Investment Trust (NRRIT)

The RRB does not receive timely information about the value of assets held and
invested by the NRRIT to support quarterly financial reporting.

The NRRIT is not a Federal agency. 3 As a result, the RRB must rely on the
NRRIT to provide monthly information which allows the RRB to calculate the
change in the NRRIT's net asset value. This monthly information is provided
pursuant to a memorandum of understanding between the RRB, NRRIT, Office
of Management and Budget (OMB) and the Department of the Treasury that
permits the NRRIT to report its balances on a one month delay. For example, for
the period ended June 30, 2007, the RRB reported NRRIT net assets as valued
on May 31, 2007, which resulted in an overstatement of the RRB’s assets of
about $200,000,000.

In a letter dated October 30, 2007, the Department of the Treasury expressed
concerns regarding timely and consistent reporting of NRRIT balances for interim
periods and asked the RRB to place more emphasis on eliminating the one
month delay.

Recommendations

We recommend that BFO:

    3. work with the NRRIT to obtain reports of NRRIT net assets within
       timeframes that will support the RRB’s interim financial reporting
       responsibilities;
    4. include footnote disclosure of the use of any out-of-date information; and
    5. advise recipients of interim financial reports prepared with out-of-date
       information of the correct amount when it becomes available and the
       related discrepancy.




3
 Under provisions of the Railroad Retirement Survivors’ Improvement Act (RRSIA), the NRRIT is
not a department, agency, or instrumentality of the Government of the United States and shall not
be subject to Title 31, United States Code.
Letter to Management                                                        Page 8
                       Memorandum on Internal Control

Management’s Response

In regard to recommendation 3, the Chief Financial Officer contacted the NRRIT
regarding elimination of a month from the current reporting cycle and reports that
the NRRIT responded that they do not see how they can eliminate a month from
the current cycle of financial reporting.

With respect to recommendation 4, BFO responded that they have already
included a footnote disclosure to the balance sheet for the first quarter of FY
2008. In regard to recommendation 5, BFO responded that they have e-mailed
the correct NRRIT balance to recipients of the balance sheet for the first quarter
of FY 2008.

The full text of management’s response is presented as Attachment 2 to this
memorandum.


Incorrect Beginning Balances for the Statement of Budgetary Resources
and the Statement of Changes in Net Position

During our audit, we identified errors in the opening balances of three budgetary
general ledger accounts as of June 30th. In addition, the statement of net
position, as of June 30th, incorrectly reported the agency’s beginning FY 2006
cumulative results of operation. In each case, the questioned balances did not
agree with the audited balances reported as of the end of the prior period.

OMB Circular A-136 states that beginning balances for the current year should
be in agreement with ending balances from the prior year.

Recommendation

We recommend that BFO:

    6. review its existing procedures and identify means to better ensure the
       accuracy of opening balances, including timely identification, to ensure
       the accuracy of interim reporting.

Management’s Response

BFO has agreed to review existing procedures and formalize them in a section of
BFO’s Accounting Procedures Guide. The full text of management’s response is
presented as Attachment 2 to this memorandum.
Letter to Management                                                       Page 9
                       Memorandum on Internal Control

Documentation to Evidence Compliance with GAAP

During our audit, we observed that BFO had not retained the recommended
documentation to evidence agency compliance with U.S. Generally Accepted
Accounting Principles (GAAP).

The Government Accountability Office (GAO) has developed checklists to
support such compliance assessments and has recommended their use for
entities that prepare Federal financial statements. These checklists which
provide a basis for assessing compliance with Federal accounting, reporting and
disclosure requirements, can also serve as a tool to identify deficiencies in the
form and content of agency statements.

BFO personnel have advised auditors that they had reviewed, but not formally
completed, the GAO Checklist.

Recommendation

We recommend that BFO:

    7. complete the GAO checklist each year to evidence compliance with
       GAAP or develop an equivalent control.

Management’s Response

BFO has agreed to “revise the APG to formally complete the GAO Checklist.”
The full text of management’s response is presented as Attachment 2 to this
memorandum.


Controls Needed to Ensure Timely Recording

Improvement is needed for the internal controls over the receipt of supporting
documentation required for voucher preparation. During our audit we observed
that Railroad Unemployment Insurance Act (RUIA) benefit payments totaling
almost $1 million were not recorded in March 2007, the month in which they were
disbursed. The benefit payments were recorded in the next accounting period,
April 2007, when the documentation was received from the Office of Programs.

BFO records benefit payment activity in the general ledger upon the advice of the
Office of Programs which orders the payments. In this case, BFO did not receive
the necessary documentation from the Office of Programs and was not alerted to
the disbursement. As a control to prevent such errors, BFO performs a
reconciliation of confirmations from the disbursement system to the general
ledger. However, that control was not effective and did not detect the delay in
recording the benefit payment disbursement.
Letter to Management                                                        Page 10
                       Memorandum on Internal Control


Recommendation

We recommend that BFO:

    8. determine the reason the existing control was ineffective and take
       additional action to strengthen controls over this process.

Management’s Response

BFO has agreed to take additional action to strengthen controls over this
process. The full text of management’s response is presented as Attachment 2
to this memorandum.


Controls Over Financial Reporting

During FY 2007, BFO acted on prior audit recommendations to strengthen
controls over the financial reporting process. However, we continue to note
some errors.

   •   The schedule of entries eliminating interfund transactions in consolidation
       lacked sufficient detail with respect to the affected funds. (September 30th)

   •   The reconciliation of the net cost of operations to the budget contained a
       balance which could not be supported. The supporting schedule also
       presented a total for several lines that did not agree to the mathematical
       sum of those lines. (June 30th)

   •   The Earmarked Funds Note was incorrect because an eliminating entry
       was omitted. (June 30th)

Recommendation

We recommend that BFO:

    9. determine the cause of the errors identified during our audit, whether
       existing controls were in operation, and whether additional controls may
       be required to ensure that the financial statements, notes, and supporting
       schedules are properly designed and operating as intended throughout
       the year.
Letter to Management                                                       Page 11
                       Memorandum on Internal Control


Management’s Response

BFO has agreed to add additional guidance on these matters in the BFO
Accounting Procedures Guide. The full text of management’s response is
presented as Attachment 2 to this memorandum.


Discrepancies in Manual Intragovernmental Confirmations

The RRB uses electronic mail transmissions to confirm intragovernmental
balances with selected Federal trading partners. During the reconciliation
process that supported financial reporting at June 30, 2007, BFO asked four
trading partners to confirm incorrect account balances because errors were
made in preparing the electronic messages.

Although none of the differences were material, errors in the communications
that initiate the confirmation process create a risk of further errors in the
accounting processes that rely on such confirmations.

Recommendation

We recommend that BFO:

    10. strengthen the existing review process to ensure the accuracy of
        confirmations sent to Federal trading partners.

Management’s Response

BFO responded that they have recently modified the BFO Accounting
Procedures Guide Section 9 on RRB Intragovernmental Policies and Procedures
and will fully implement them for the next quarterly processing.

The full text of management’s response is presented as Attachment 2 to this
memorandum.
Letter to Management                                                         Page 12
                       Memorandum on Internal Control

Preparation and Approval of Journal Vouchers

During FY 2007 BFO implemented new procedures in response to prior audit
recommendations to strengthen controls over preparation of the paper vouchers
and related support that document general ledger accounting. However, we
continue to note some errors as described below.

Financial Interchange Advances

   •   BFO personnel prepared ten vouchers, including the preparer’s signature,
       from the period November 2006 through August 2007 to record Treasury
       advances of approximately $2.7 billion prior to completion of the transfer.
       Although not recorded in the general ledger until the advance was
       received, the vouchers should not have been signed by a preparer until
       the transfers took place because evidence of transfer is required to
       support the transaction.
   •   Seven of the ten vouchers were approved by a reviewer prior to the
       transfer. The vouchers should not have been approved because available
       documentation was inadequate to support the voucher.
   •   In preparing the above vouchers, BFO staff dated the voucher with the
       anticipated date of the transfer. As a result, the voucher date is after the
       preparation and, in seven cases, after the approval date.
   •   We also found one voucher with a computer-generated signature for the
       preparer for which initials were not provided.
   •   Eleven vouchers were not supported by RRB internal memoranda
       authorizing investment of the funds on receipt.

Transfers from the Department of Labor

Periodically, funds from the Department of Labor are transferred back to the RRB
as needed to pay benefits.

We identified seven vouchers that did not include signed letters authorizing the
cash transfers. Six vouchers were supported only by unsigned letters; one
voucher did not include a letter.

Two of the seven incidents described above occurred in July 2007, after new
BFO procedures had been implemented.
Letter to Management                                                       Page 13
                       Memorandum on Internal Control

Reimbursement from the Social Security Administration

The Office of Programs prepares a memorandum requesting a transfer of funds
from the Social Security Administration to fund the social security portion of the
recurring monthly check issue. The memorandum is sent to BFO and it is used
to initiate the request for the transfer of funds and to record the transaction.

During our audit, we identified two of the 12 monthly vouchers that were
supported by memoranda that did not include the signatures of the “Authorizing
Certifying Officer” and “Reviewer” in the Office of Programs. We did not see any
evidence that these memoranda had been questioned by BFO.

Inaccurate Supporting Schedule

During our audit, we identified a voucher used to record disbursement of RUIA
benefit payments that was supported by incorrect information. Although the
voucher was accurate as to amount, the supporting schedule was incorrect as to
payment control numbers which link the recorded payments to documentation
provided by the Office of Programs, where payment originates.

Recommendation

We recommend that BFO:

    11. instruct staff on the proper documentation needed to support transactions
        prior to the preparation of a voucher, the need to evidence proper voucher
        preparation even when automated signatures are used, and the need for
        accurate and consistent documentation to support journal vouchers.

Management’s Response

BFO plans to continue to instruct staff on the proper documentation for vouchers
and will enhance BFO’s Accounting Procedures Guide section on the preparation
of vouchers.

The full text of management’s response is presented as Attachment 2 to this
memorandum.


Quality Assurance Process for Voucher Preparation

During FY 2007, in response to prior OIG recommendations for improved
controls over the voucher preparation process, BFO developed a quality
assurance process. Our review of the documentation for this process indicates
that this new process could be more effective.
Letter to Management                                                       Page 14
                       Memorandum on Internal Control

As presently designed, the quality assurance process relies on very small sample
sizes (five vouchers a month) and does not provide for random selection (the
same vouchers could be reviewed each month). In addition, the sample
evaluation criteria may not flag errors for corrective action. For example, current
procedure provides that if two exceptions are found, the voucher is considered
acceptable; a voucher will only be identified as incomplete if three or more errors
are found for that voucher. Existing procedures do not provide for an action plan
that responds to errors once identified.

We also observed that quality assurance reviewers may be hampered by the lack
of guidance concerning management’s expectations concerning voucher
documentation. The current process could be strengthened by examples of
properly prepared vouchers as a reference for quality assurance reviewers and
responsible staff.

Recommendations

We recommend that BFO:

    12. refine the quality assurance process to increase the sample size, allow for
        a wider selection of vouchers to be reviewed, and to redefine the number
        of acceptable errors;
    13. support the quality assurance process by documenting examples of a
        properly completed voucher, including required documentation for each
        recurring voucher; and

    14. develop a specific procedure for how the results of the quality assurance
        evaluation will be used to improve performance.

Management’s Response

In regard to recommendation 12 and 13, BFO has agreed to refine the quality
assurance process and document examples of a properly completed voucher in
BFO’s Accounting Procedures Guide. With respect to recommendation 14, BFO
has agreed to document in BFO’s Accounting Procedures Guide a specific
procedure for how results of the quality assurance evaluations will be used to
improve performance.

The full text of management’s response is presented as Attachment 2 to this
memorandum.
Letter to Management                                                                Page 15
                          Memorandum on Internal Control

Executing and Recording Transactions

During our audit, we observed that the individual responsible for executing
transfers from the Treasury system is also responsible for recording the
transaction in the general ledger. This practice does not provide for adequate
separation of duties.

BFO documents the redemption of investments with memoranda prepared by the
responsible staff accountant. Each memorandum is prepared for the Accounting
Officer’s signature and addressed to the BFO accountant responsible for
executing the transaction. The accountant to which the memorandum is
addressed not only executes the redemption transaction in the Treasury system,
but also prepares the voucher to record the transaction in the general ledger.
Key duties and responsibilities need to be divided or segregated among different
people to reduce the risk of error or fraud. 4

Recommendation

We recommend that BFO:

    15. review the procedures for redemption of investments to ensure proper
        segregation of duties.

Management’s Response

BFO has agreed to review the procedures for possible additional segregation of
duties. The full text of management’s response is presented as Attachment 2 to
this memorandum.


Documentation for Legal Representation Process

During our audit, we observed that the Office of General Counsel had not fully
documented procedures and activities supporting the legal representations that
they provided to auditors during the financial statement audit.

Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for
examination. 5



4
 “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) page
14
5
 “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page
15
Letter to Management                                                       Page 16
                       Memorandum on Internal Control

Recommendation

We recommend that the Office of General Counsel:

    16. develop an internal control process for legal representations that complies
        with applicable GAO internal control standards.

Management’s Response

The Office of General Counsel concurs with the recommendation. The full text of
management’s response is presented as Attachment 3 to this memorandum.


Internal Controls over Payroll Activities

The RRB needs to improve its controls over time and attendance data to require
the periodic reconciliation of data, proper separation of duties, and that the
RRB’s payroll responsibilities be clearly defined.

The GSA provides payroll processing service to the RRB. The RRB maintains
salary information which is the basis for hourly pay rates and inputs bi-weekly
time and attendance data. GSA computes the agency’s payroll from this data
and makes disbursement from the RRB’s cash accounts at the U.S. Treasury.
The RRB records payroll expense based on GSA’s report of bi-weekly payroll
activity.

The GSA payroll system is a distributed data processing system. RRB
employees enter time and attendance information from locations throughout the
agency. Data is entered by the time and attendance clerk and must be approved
by a second employee, termed the certifier.

During our audit we observed that current agency procedure does not include
periodic reconciliation with the GSA system or analysis to identify processing
errors. In addition, we observed a lack of separation of duties which permits
some individuals to certify their own payroll information.

We are also concerned that the RRB may not have clearly defined the agency’s
payroll responsibilities, including control functions that remain at the RRB. While
GSA has primary responsibility for the accuracy of payroll processing,
responsibility for certain control activities remain the responsibility of the RRB.
Letter to Management                                                        Page 17
                       Memorandum on Internal Control

Pursuant to the requirements of Statement on Auditing Standards (SAS) No. 70,
Service Organizations, GSA provided the RRB with a copy of
PriceWaterHouseCoopers’ Report on GSA National Payroll Center (NPC),
Payroll Accounting and Reporting (PAR) System Controls which states that “[t]he
NPC’s applications and payroll process were designed with the assumption that
certain controls would be implemented by customer organizations.” A list of
those control responsibilities is presented below.

   •   access to GSA’s PAR system is restricted to authorized users;

   •   authorized users in customer organizations behave in an appropriate
       manner based on applicable security guidelines and recommendations;
   •   personnel transactions are properly authorized within the user
       organization, and are input completely and accurately or sent to GSA for
       processing in a timely manner;
   •   time and attendance data is properly authorized within the user
       organization, and is input completely and accurately in a timely manner;
   •   output reports are reviewed by appropriate individuals for completeness
       and accuracy; and
   •   output received from the NPC is routinely reconciled to relevant user
       organization control totals.

The Management Control Review Committee provides oversight to the control
assessment process that supports the RRB’s reporting under the Federal
Manager’s Financial Integrity Act (FMFIA). The most recent management
control review of payroll processing was in 1999, more than five years before the
RRB began using the GSA system.

Recommendations

We recommend that BFO:

    17. perform quarterly reconciliations of cumulative general ledger totals with
        the GSA system to coincide with financial reporting cut-off dates;
    18. analyze GSA reports to identify trends that could identify processing
        errors; and
    19. review and update procedures and controls for recording time and
        attendance.
Letter to Management                                                          Page 18
                        Memorandum on Internal Control

We recommend that the Management Control Review Committee:

    20. work with BFO to update the risk assessment, chart of controls and
        flowcharts to clearly identify the RRB’s payroll responsibilities and to
        identify new controls, such as periodic reconciliations and the proper
        separation of duties.

We recommend that the RRB's Executive Committee:

    21. implement an agencywide policy prohibiting employees from certifying
        their own time and attendance or develop a compensating control.

Management’s Response

In regard to recommendation 17, BFO responded that they have performed the
first reconciliation on the first quarter FY 2008 totals. With respect to
recommendation 18, BFO responded that they have prepared trend data on a
biweekly basis. In regard to recommendation 19, BFO has agreed to review and
update the Payroll User Guide which provides guidance for time and attendance.
The full text of BFO’s response is presented as Attachment 2 to this
memorandum.
With respect to recommendation 20, the Management Control Review
Committee has agreed to work with BFO to update documentation of payroll
controls. The full text of the Management Control Review Committee’s response
is presented as Attachment 4 to this memorandum.

In regard to recommendation 21, the Executive Committee has agreed to
develop a compensating control to monitor time and attendance certification
activity. The full text of the Management Control Review Committee’s response
is presented as Attachment 5 to this memorandum.


Controls Over the Actuarial Projection Process and Social Insurance
Reporting

The RRB’s Bureau of the Actuary is responsible for preparing the statement of
social insurance. During our audit, we identified several areas in which controls
over the actuarial projection process and social insurance reporting could be
improved.

During our audit we observed that the Bureau of the Actuary’s quality assurance
process is limited to a high-level review of the final work product prior to release.
An effective quality assurance process should also include a detailed post-
release review of the documentation and work product for conformance with
established internal and external standards by a professional who did not
participate in its preparation.
Letter to Management                                                        Page 19
                       Memorandum on Internal Control


We noted that the sign-off sheet which is retained as evidence that planned
control procedures were performed does not reference the related requirements
in the applicable procedure manual and that it does not capture the date that the
procedure was performed. In addition, we noted that the procedure manual did
not reflect several recent updates to bureau procedure.

Recommendations

We recommend that the Bureau of the Actuary:

    22. develop additional quality assurance procedures;
    23. reference the sign-off sheet to the procedure manual to ensure that the
        sign-off process is complete with respect to required procedures;
    24. require that the internal control sign-off sheet include the date procedures
        are performed; and
    25. update the procedure manual to ensure that it reflects current approved
        practice.

Management’s Response

The Bureau of the Actuary concurred with the recommendations. With respect to
recommendation 24, the Bureau of the Actuary has agreed to include the last
date on the sign-off sheet for procedures performed on multiple dates.

The full text of management’s response is presented as Attachment 1 to this
memorandum.
                                            ATTACHMENT 1                                Page 20


               UNITED STATES GOVERNMENT                                                 FORM 0·1161 (1-12)

                                                                    RAILROAD RETIREMENT BOARD
               MEMORANDUM


                                                                   February 13, 2008




TO:         Letty Benjamin Jay
            Assistant Inspector General for Audit

FROM:       Frank J. Buzzi    ;t-..A!.,/ ~~
            Chief Actuary

SUBJECT: Draft Letter to Management
         FY 2007 Financial Statement Audit


Thank you for the opportunity to review and comment on the subject draft letter to
management.

We concur with recommendations 1,22,23,24, and 25. With respect to
recommendation 24, we will include the last date on the sign-off sheet for procedures
perfonned on multiple dates.

Our target completion date for these recommendations is July 31, 2008.


cc: Chief Financial Officer
                                         ATTACHMENT 2	                            Page 21


                  UNITED STATES GOVERNMENT	                                           FORM G·1I6f [1·82]
                                                                     RAILROAD RETIREMENT BOARD
                 MEMORANDUM

                                                                     FEB 21 ZOtl
TO        ..   Letty B. Jay
               Assistant Inspector General for Audit


FROM      :    John M. Walter    j4...~. ~   {f/
               Chief of Accounting, Treasury and Financial Systems
               THROUGH: Kenneth P. Boehne             - # J J --" ~ /
                             Chief Financial Officer ~ A"~


SUBJECT: Letter to Management - Fiscal Year 2007 Financial Statement Audit



Thank you for giving us the opportunity to comment on your draft Letter to Management.
We appreciate that you recognize the financial reporting process has expanded
responsibilities and shorter time frames. The process has expanded from preparation
of financial statements within 6 months of the fiscal year-end, to publication of an annual
Performance and Accountability Report within 45 days of the fiscal year-end. We have
reviewed the above draft memorandum dated February 6, 2008, and our comments on
recommendations are as follows:

Recommendations:

We recommend that BFO:

     2.	 review the applicable standard and make specific documented

         determinations concerning how the modified cash basis of accounting

         impacts the accounting and reporting of tax revenue.


        We will review the applicable standard and present in BFO's Accounting
        Procedures Guide (APG) how the modified cash basis of accounting impacts
        the accounting and reporting of tax revenue. Target date: June 2008.


     3.	 work with the NRRIT to obtain reports of NRRIT net assets within

         timeframes that will support the RRB's interim financial reporting

         responsibilities;


         On October 31,2007, the Chief Financial Officer contacted the NRRIT
         regarding elimination of a month from the current reporting cycle. NRRIT's
         Senior Administrative Officer responded as follows: "Regarding the
         1st paragraph on the second page concerning the lag in reporting data to the
                                                                             Page 22
                                       - 2­
                                                                             Attachment 2


     RRB, to be candid, we do not see how we can eliminate a month from the
     current cycle of reporting financial information as required in the MoU. If we
     remove a month from the reporting cycle, the data would be due the
     2nd business day after a month end. It is not possible at this time (nor in the
     foreseeable future) to get final valuations of the NRRIT portfolio (data gathered
     and MoU reports completed) 2 days after the close of the month. The reality is
     that account valuations for all of the different types of investments are not
     finalized until 6-8 business days after the month end. We would not want to try
     to produce MoU reports based on preliminary data."


4.   include footnote disclosure of the use of any out-of-date information;

     We implemented this recommendation by, beginning with the first quarter of
     fiscal year 2008, adding a footnote to the balance sheet.


5.   advise recipients of interim financial reports prepared with out-of-date
     information of the correct amount when it becomes available and the
     related discrepancy.

     We implemented this recommendation by, beginning with the first quarter of
     fiscal year 2008, emailing the NRRIT balance to recipients of the balance
     sheet.


6.   review its existing procedures and identify means to better ensure the
     accuracy of opening balances including timely identification to ensure
     the accuracy of interim reporting.

     We will review existing procedures and formalize them in a section of BFO's
     APG. Target date: June 30, 2008.


7.   complete the GAO checklist each year to evidence compliance with
     GAAP or develop an equivalent control.

     We currently use Section 2 (pages 2-17 and 2-18) of BFO's APG and reference
     the GAO Checklist to evidence compliance with GMP. We will revise the APG to
     formally complete the GAO Ghecklist. Target date: December 1, 2008.


8.   determine the reason the existing control was ineffective and take
     additional action to strengthen controls over this process.

     We will take additional action to strengthen controls over this process. Target
     date: June 30, 2008.
                                                                      Page 23

                                    -3­                               Attachment 2


9.	 determine the cause of the errors identified during our audit, whether
    existing controls were in operation, and whether additional controls may
    be required to ensure that the financial statements, notes, and supporting
    schedules are properly designed and operating as intended throughout
    the year.

   BFO's APG will have additional guidance added on these matters. Target
   date: June 30, 2008.


10.	 strengthen the existing review process to ensure the accuracy of
     confirmations sent to Federal trading partners.

   We have recently modified BFO's APG Section 9 on RRB Intragovernmental
   Policies and Procedures and will fully implement them for the next quarterly
   processing. Target date: June 30, 2008.


11.	 instruct staff on the proper documentation needed to support
      transactions prior to the preparation of the voucher, the need to evidence
     proper voucher preparation even when automated signatures are used,
     and the need for accurate and consistent documentation used to support
     journal vouchers.

   We will continue to instruct staff on the proper documentation for vouchers and
   will enhance BFO's APG section on the preparation of vouchers. Target date:
   June 30, 2008.


12.	 refine the quality assurance process to increase the sample size, allow
     for a wider selection of vouchers to be reviewed, and to redefine the
     number of acceptable errors;

   We will refine the quality assurance process. Target date: June 30, 2008.


13.	 support the quality assurance process by documenting examples of a
     properly completed voucher, including required documentation for each
     recurring voucher;

   We will document examples of a properly completed voucher in BFO's APG.
   Target date: June 30, 2008.
                                                                           Page	 24
                                         -4­
                                                                           Attachment 2


    14.	 develop a specific procedure for how the results of the qucdityassurance
         evaluation will be used to improve performance.

        We will document in BFO's APG a specific procedure for how results of the
        quality assurance evaluations will be used to improve performance. Target
        date: June 30, 2008.


    15.	 review procedures for redemption of investments to ensure proper
         segregation of duties.

        The current responsibilities of authorizing, processing, and recording
        investments involve at least two individuals. However, we will review the
        procedures for possible additional segregation of duties. Target date:
        June 30, 2008.


    17. perform quarterly reconciliations of cumulative general ledger totals with
        the GSA system to coincide with financial reporting cut-off dates;

        This recommendation was implemented when the first quarterly reconciliation
        was performed on the 1st quarter fiscal year 2008 totals.


    18. analyze GSA reports to identify trends that could identify processing
        errors; and

        We implemented this recommendation by preparing trend data on a biweekly
        basis.


    19.	 review and update procedures and controls for recording time and
         attendance.

        We will review and update the Payroll User Guide which provides guidance for
        time and attendance. Target date: August 30, 2008.



cc:	 Ed Fleming, Accounting Officer
     Rich Lannin, Senior Accountant
     Liz Stubits, Accountant
     Edie Natividad, Accountant
     Dave Miller, Finance Officer
     Kris Garmager, Financial Systems Manager
     Hattie Fitzgerald, Financial Compliance Officer
     Bill Flynn, Executive Assistant
     Jill Roellig, Management Analyst
                                    ATTACHMENT 3	              Page 25



                                                                     FORM 0-115' 11-82)
             UNITED STATES GOVERNMENT
                                                      RAILROAD RETIREMENT BOARD
             MEMORAND'UM
                                                          FEB 112008


TO	          Letty Benjamin Jay

             Assistant Inspector General for Audit



FROM	        Steven A. Bart~~~o~.
                            / .             ~...

             General coun~ t1(r~



SUBJECT	     Draft Letter to Management

             FY 2007 Financial Statement Audit



This is in response to your memorandum on the above subject dated
February 6, 2008. I have reviewed the Draft Letter to Management,
including recommendation 16 concerning documentation for the legal
representation process. I concur with recommendation 16.
                                          ATTACHMENT 4                             Page 26
                 UNITED STATES GOVERNMENT                                              FORM G-l15f 11·821

                 MEMORANDUM                                           RAILROAD RETIREMENT BOARD



                                                                           FEB 26 2008

TO         :   Letty B. Jay
               Assistant Inspector General for Audit


FROM       :   John M. Walter, Chair      f	 14.~*
               Management Control Review Committee


SUBJECT: Draft Letter to Management - FY 2007 Financial Statement Audit



Thank you for the opportunity to review and comment on the above draft report dated
February 6,2008. Our comment on the recommendation is as follows:

        Recommendation 20: We recommend that the Management Control Review
        Committee work with BFO to update the risk assessment, chart of controls and
        flowcharts to clearly identify the RRB's payroll responsibilities and to identify
        new controls, such as periodic reconciliations and the proper separation of duties.

        MCRC Comment: The MCRC and staff will work with the Bureau of Fiscal
        Operations to update documentation of payroll controls by the end of August
        2008.

We have no comments on the other recommendations in this draft report. If you have
any questions concerning our comments, please advise.


cc:	   Kenneth P. Boehne, Chief Financial Officer
       David Miller, Finance Officer
       Hattie Fitzgerald, Financial Compliance Officer
       Management Control Review Committee
       Jill Roellig, Management Analyst
       Bill Flynn, Executive Assistant
                                        ATTACHMENT 5                           Page 27
                                                                                 FORM 0.1151 (1·92)
                UNITED STATES GOVERNMENT
                                                                RAILROAD RETIREMENT BOARD
                MEMORANDUM
                                                                   February 13,2008



TO           Letty Benjamin Jay
             Assistant Inspector General for Audit


FROM                  .Va~       /     e~
            Qit:eer9t"Of~ia~~r Executive Officer
SUBJECT:	 Draft   er to Management
          FY 2007 Financial Statement Audit


This is in response to your draft "Letter to Management" which was prepared in
conjunction with the Railroad Retirement Board's FY 2007 financial statements audit. In
the letter you had asked for a statement of concurrence or non-concurrence with the
finding and recommendation directed to the Executive Committee.

      #21. We recommend that the RRB 's Executive Committee implement an
      agencywide policy prohibiting employees from certifying their own time and
      attendance or develop a compensating control.

The Executive Committee considered your recommendation and agreed to develop a
compensating control to monitor time and attendance certification activity. The control
will be implemented by each organization by May 31, 2008, or sooner.

Thank you for the opportunity to respond to the draft recommendation.

cc: Executive Committee
